    November 15, 2005




 Oversight Review
FY 2005 External Reviews of the Quality
Control Systems of the Military
Department Audit Agencies
(Report No. D-2006-6-001)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Office of Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax
  (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy
  and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas
  and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1015)
                             Arlington, VA 22202-4704




Acronyms
AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
NAVAUDSVC             Naval Audit Service
OAIG-APO              Office of the Assistant Inspector General for Audit Policy
                        and Oversight
PCIE                  President’s Council on Integrity and Efficiency
standard related to audit documentation, specifically states in paragraph 7.66 that audit
documentation should contain support for findings, conclusions, and recommendations
before auditors issue their report. Absent guidance that addresses data integrity, the
potential increases for auditors to inappropriately alter documentation that supports a
significant finding, conclusion, or recommendation.

        From a quality control system review perspective, the reviewer or other oversight
official may be unable to verify that the audit documentation supported the report prior to
report issuance. Fortunately, each of the audit agencies was able to satisfy themselves
through review of additional documentation that the reports reviewed were supported at
the time of issuance. However, the external review team and the internal auditors from
the audit organization under review had to expend a substantial amount of extra time that
would not have been necessary if sufficient guidance was in place on post-report changes
to audit documentation.

       Each of the Military Department audit agencies have taken some action already or
agreed to take action to help ensure the integrity of audit documentation after report
issuance. For example, according to AAA review comments, on April 4, 2005, AAA
established policy for archiving working papers which addressed the ability to modify
work papers after the final report was issued. The Naval Audit Service established an
action plan that includes the implementation of a policy to make work papers “Read
Only” on the day of report publication. AFAA agreed to emphasize the evidence and
audit documentation area in its FY 2006 quality assurance reviews and issue a
memorandum to all Agency personnel highlighting the 2005 review results.

       However, because of the concerns about changes to audit documentation after
report issuance, the Office of the Inspector General of the Department of Defense will
incorporate guidance in the DoD Audit Manual. The guidance will include each audit
organization developing and following policies and procedures that ensure the integrity
of audit documentation, to include policies and procedures such as:

   1. An explicit understanding that supporting documentation and quality procedures
      should be completed prior to issuing the final report.
   2. The circumstances under which it is appropriate and acceptable to modify audit
      documentation after a report is issued.
   3. Procedures for documenting changes made including documenting when changes
      were made, who made the changes, and effects if any of the changes on the
      auditor’s prior conclusions.
   4. The acceptable period of time, if any, for making changes to audit documentation
      after report issuance after which deletions to, discarding of, and additions or
      changes to audit documentation should not occur.




                                             2
   5. An explicit statement emphasizing the imprudence of changing working papers
      that were specifically used to support significant facts and conclusions in the audit
      report.
   6. An explicit statement that under no circumstances should changes be made to
      audit documentation subsequent to notification of pending external or internal
      review.

               Repeat Observations. The Military Department audit agencies also
identified repeat observations from the FY 2002 external peer reviews of each other. The
repeat observations identified included strengthening independent referencing, improving
audit supervision, and the completeness and accuracy of systems used to track continuing
professional education. The Military Department audit agencies need to monitor
continuously their internal quality control systems and seek ways to make improvements
for the repeat observations made in the FY 2005 external peer review. If the repeat
observations continue, the opinion for future external peer reviews may be affected
because repeat observations may indicate that the agency quality control system is not
functioning satisfactorily.

        External Review Process and Methodology. The Office of the Assistant
Inspector General for Audit Policy and Oversight (OAIG-APO) and the Military
Department audit agencies used the Draft 2004 President’s Council on Integrity and
Efficiency (PCIE) External Peer Review Guide to conduct their reviews of the Military
Department audit agencies’ audit operations and modified the guide as appropriate. We
performed several procedures to provide a basis for reliance on the Military Department
audit agencies review results and to ensure that the PCIE guidelines were consistently
applied. We attended planning meetings, monitored progress throughout the external
peer reviews, accompanied Military Department audit agency review staff members on
site visits, and met with review staff members. We also reviewed selected working
papers of the review staff members and independently retested selected data to verify the
validity of auditor conclusions.

       For the review of Special Access Program audits, we judgmentally selected three
Special Access Program audits from each Military Department audit agency to review.
We reviewed the Special Access Program audits using the guide as modified to ensure
consistency with the Military Department audit agencies review of non-Special Access
Program audits, and to reflect the unique nature of auditing within a Special Access
Program environment.

       Limitations of Reviews. The external reviews of the quality control systems
performed by the Military Department audit agencies and OAIG-APO would not
necessarily disclose all weaknesses in the system of quality control or all instances of
noncompliance with it because the reviews were based on selective tests. There are
inherent limitations in considering the potential effectiveness of any quality control


                                             3
